                           U.S. Department of Agriculture

                              Office of Inspector General
                               Financial & IT Operations




                Audit Report

Fiscal Year 2006 – Office of the Chief Financial
        Officer/National Finance Center
           General Controls Review




                                 Report No. 11401-24-FM
                                        September 2006
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


September 28, 2006


REPLY TO
ATTN OF:       11401-24-FM

TO:            Charles R. Christopherson, Jr.
               Chief Financial Officer
               Office of the Chief Financial Officer

THROUGH: Kathleen A. Donaldson
         Audit Liaison Officer
         Office of the Chief Financial Officer

FROM:          Robert W. Young       /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Fiscal Year 2006 – Office of the Chief Financial Officer/National Finance Center
               General Controls Review


This report presents the results of our review of internal controls at the Office of the Chief
Financial Officer/National Finance Center (OCFO/NFC) for fiscal year 2006. The audit was
conducted in accordance with Government Auditing Standards issued by the Comptroller
General of the United States and American Institute of Certified Public Accountants Professional
Standards AU Sections 316, 319, and 324, as amended by applicable Statements on Auditing
Standards (SAS), which are commonly referred to as a SAS 70 audit. While OCFO/NFC has
recovered from the disruptions caused by Hurricane Katrina and continued to improve its
internal controls, the report contains a qualified opinion because certain control policies and
procedures, as described in the report, had not operated effectively during fiscal year 2006.

The report describes weaknesses in OCFO/NFC internal control policies and procedures that
may be relevant to the internal control structure of OCFO/NFC customer agencies. However, the
accuracy and reliability of the data processed by OCFO/NFC and the resultant reports ultimately
rests with the customer agency and any accompanying compensating controls implemented by
the agency. The projections of any conclusions based on our audit findings to future periods are
subject to the risk that changes may alter the validity of such conclusions. This report is intended
solely for the management of OCFO/NFC, its customer agencies, and their auditors.

We appreciate the courtesies and cooperation extended to us during this review.
Executive Summary
Fiscal Year 2006 – Office of the Chief Financial Officer/National Finance Center General
Controls Review (Audit Report No. 11401-24-FM)

Results in Brief      This report presents the results of our review of internal controls at the U.S.
                      Department of Agriculture’s Office of the Chief Financial Officer/National
                      Finance Center (OCFO/NFC) for fiscal year 2006. While OCFO/NFC had
                      continued to improve its internal controls, this report contains a qualified
                      opinion because OCFO/NFC controls had not operated effectively to ensure
                      that certain entity-wide security program planning and management, access,
                      application change, system software, and service continuity control
                      objectives were consistently achieved from October 1, 2005 through June
                      30, 2006. This occurred mainly because of disruptions to normal operating
                      procedures while OCFO/NFC recovered its operations and reconstituted its
                      workforce in New Orleans, Louisiana, after Hurricane Katrina. While we
                      also identified certain controls that were not adequately designed,
                      OCFO/NFC updated its procedures during our review to address these
                      issues. The results of our tests and corrective actions taken by OCFO/NFC
                      are described in exhibit B.

                      Our objectives were to perform procedures necessary to express opinions
                      about whether (1) OCFO/NFC’s description of controls in exhibit A presents
                      fairly, in all material respects, the aspects of OCFO/NFC controls that may
                      be relevant to a customer agency’s internal control as it relates to an audit of
                      financial statements; (2) the controls included and/or referenced were placed
                      in operation and suitably designed to achieve the control objectives specified
                      in the description, if those controls were complied with satisfactorily, and
                      customer agencies applied the controls specified in exhibit A; and (3) the
                      controls we tested were operating with sufficient effectiveness to provide
                      reasonable, but not absolute, assurance that the control objectives specified
                      were achieved during the period from October 1, 2005 through June 30,
                      2006.

                      Our audit disclosed that OCFO/NFC’s description of controls presented
                      fairly, in all material respects, the relevant aspects of OCFO/NFC. Also, in
                      our opinion, the controls included and/or referenced in the description, as
                      updated, were suitably designed to provide reasonable assurance that
                      associated control objectives would be achieved if the described policies and
                      procedures were complied with satisfactorily and customer agencies applied
                      the controls specified in the OCFO/NFC description of controls.

Recommendations
In Brief              During our review, OCFO/NFC reinstituted control activities that were
                      disrupted after Hurricane Katrina and updated its procedures to address the
                      control weaknesses we identified.            We make no additional
                      recommendations.

USDA/OIG-A/11401-24-FM                                                                         Page i
Table of Contents

Executive Summary .................................................................................................................................i

Report of the Office of Inspector General ............................................................................................ 1

Exhibit A – Office of the Chief Financial Officer/National Finance Center Description of
            Controls .............................................................................................................................. 3
Exhibit B – Office of Inspector General - Review of Selected Controls .......................................... 18




USDA/OIG-A/11401-24-FM                                                                                                                     Page ii
                          UNITED STATES DEPARTMENT OF AGRICULTURE

                                      OFFICE OF INSPECTOR GENERAL

                                           Washington D.C. 20250




Report of the Office of Inspector General
TO:    Charles R. Christopherson, Jr.
       Chief Financial Officer
       U.S. Department of Agriculture

We have examined the control objectives and techniques identified in exhibit A for the U.S.
Department of Agriculture’s (USDA) Office of the Chief Financial Officer/National Finance Center
(OCFO/NFC). Our examination included procedures to obtain reasonable assurance about whether (1)
the accompanying description presents fairly, in all material respects, the aspects of OCFO/NFC
controls that may be relevant to a customer agency’s internal control as it relates to the audit of
financial statements; (2) the controls included or referenced in the description had been placed in
operation as of June 30, 2006; and (3) such controls were suitably designed to achieve the control
objectives in the description, if those controls were complied with satisfactorily and customer agencies
applied the controls specified in the OCFO/NFC description of controls. The control objectives were
specified by OCFO/NFC.

Our audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States and standards issued by the American Institute of Certified
Public Accountants and included those procedures we considered necessary to obtain a reasonable
basis for rendering our opinion.

OCFO/NFC continued to improve its internal controls. However, certain security program planning
and management, access, application change, system software, and service continuity control
objectives, as described in exhibit B, were not consistently achieved during the period when
OCFO/NFC was recovering its operations and reconstituting its workforce in New Orleans, Louisiana,
after Hurricane Katrina. While we also identified certain control practices that were not adequately
designed, OCFO/NFC updated its procedures during our review to address our concerns.

In our opinion, OCFO/NFC’s description of controls in exhibit A presents fairly, in all material
respects, the relevant aspects of OCFO/NFC controls that had been placed in operation as of June 30,
2006. Also, in our opinion, the controls included and/or referenced in exhibit A were suitably
designed to provide reasonable assurance that the related control objectives would be achieved if the
described controls were complied with satisfactorily and customer agencies applied the controls
specified in the OCFO/NFC description of controls.

In addition, we performed tests to obtain evidence regarding the effectiveness of OCFO/NFC policies
and procedures in meeting the control objectives included in exhibit A. The specific controls and the
nature, timing, extent, and results of our tests are identified in exhibit B. This information has been
provided to customer agencies and their auditors to be taken into consideration, along with information
about the internal control at customer agencies, when making assessments of control risk for customer

USDA/OIG-A/11401-24-FM                                                                           Page 1
agencies. In our opinion, except for the matters referred to above, the controls that were tested were
operating with sufficient effectiveness to provide reasonable, but not absolute, assurance that the
control objectives specified in exhibit A were achieved during the period from October 1, 2005
through June 30, 2006.

The relative effectiveness and significance of specific controls at OCFO/NFC and their effect on
assessments of control risk at customer agencies are dependent on their interaction with the controls
and other factors present at individual customer agencies. We did not evaluate the effectiveness of
controls at individual customer agencies.

The description of controls at OCFO/NFC is as of June 30, 2006, and information about tests of the
operating effectiveness of specific controls covers the period from October 1, 2005 through June 30,
2006. Any projection of such information to the future is subject to the risk that, because of change,
the description may no longer portray the controls in existence. The potential effectiveness of specific
controls at OCFO/NFC is subject to inherent limitations and, accordingly, errors or fraud may occur
and not be detected. Furthermore, the projections of any conclusions, based on our findings, to future
periods are subject to the risk that changes may alter the validity of such conclusions. Finally, the
accuracy and reliability of data processed by OCFO/NFC and the resultant reports ultimately rests with
the customer agency and any compensating controls implemented by such agency.

This report is intended solely for the management of OCFO/NFC, its customer agencies, and their
auditors.


/s/

Robert W. Young
Assistant Inspector General
 for Audit

September 21, 2006




USDA/OIG-A/11401-24-FM                                                                           Page 2
Exhibit A          – Office of the Chief Financial Officer/National Finance Center
Description of Controls
                                                                  Exhibit A – Page 1 of 15




USDA/OIG-A/11401-24-FM                                                           Page 3
Pages 4 through 17 are not being publicly released due to
    the sensitive security information they contain.
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                  Exhibit B – Page 1 of 16

This exhibit describes the results of our tests of operating effectiveness for OCFO/NFC control
objectives specified in exhibit A. It is intended to provide customer agencies with information about
OCFO/NFC control structure policies and procedures that may affect the processing of customer
agency transactions and the operating effectiveness of the policies and procedures we tested. This
report, when combined with an understanding and assessment of the internal control structure policies
and procedures at customer agencies, is intended to assist customer agency auditors in (1) planning the
audit of customer agency financial statements, and (2) in assessing control risk for assertions in
customer agency financial statements that may be affected by OCFO/NFC control structure policies
and procedures.

Our review was conducted through inquiry of key OCFO/NFC personnel, observation of activities,
examination of relevant documentation and procedures, and other tests of controls. We also followed
up on known control weaknesses identified in prior Office of Inspector General audits. We performed
such tests as we considered necessary to evaluate whether operating and control procedures established
by OCFO/NFC and the extent of compliance with them were sufficient to provide reasonable, but not
absolute, assurance that the specified control objectives were achieved. Our testing was not intended
to apply to any procedures not included in this exhibit or to procedures that may be in effect at
customer agencies.

The following table presents the control objectives specified by OCFO/NFC in exhibit A, related
control activities established by OCFO/NFC, a description of our tests to determine if OCFO/NFC
controls were operating with sufficient effectiveness to achieve the specified control objectives, and
the results of those tests.




USDA/OIG-A/11401-24-FM                                                                          Page 18
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                            Exhibit B – Page 2 of 16
     CONTROL                            CONTROL
     OBJECTIVE                         ACTIVITIES                    TESTS PERFORMED                        CONCLUSION
1. OCFO/NFC ensures its      OCFO/NFC C&A procedures,               We reviewed the risk            OCFO/NFC controls were
   entity-wide security      which address security                 assessments, system security    suitably designed to achieve the
   program planning and      documentation requirements             plans, ST&E reports,            control objectives. We also found
   management control        throughout an information system’s     certification statements, and   that that security impacts
   objectives are met by:    life cycle, establish roles and        accreditation statements for    associated with changes to
                             responsibilities for a three-phased    OCFO/NFC’s                      applications and general support
    a. Enforcing the         C&A approach:                          Payroll/Personnel System,       systems were assessed. However,
       security life cycle                                          Payroll Accounting System,      OCFO/NFC had not updated its
       process in all        • Phase 1, the precertification        System for Time and             general support system risk
       phases of the           phase, consists of defining the      Attendance Reporting, and       assessments, security plans,
       information             system, including its security       the associated general          certifications, or accreditations to
       system’s life;          categorization, and the scope of     support systems.                reflect the changes that occurred
                               the C&A effort; identifying                                          when data center operations were
    b. developing and          existing security controls from      We randomly selected 15 of      transferred to the interim
       maintaining system      the security controls compliance     the 177 non-emergency           computing facility in
       security plans to       matrix, reviewing the system         projects associated with        Philadelphia, Pennsylvania, in
       document current        security plan, reviewing the         application changes that        January 2006.
       controls and            initial risk assessment, and         occurred between October 1,
       address planned         negotiating with participants.       2005 and March 15, 2006,        OCFO/NFC officials told us that
       controls for                                                 and judgmentally selected 10    they were operating under
       information           • Phase 2, the C&A phase,              of the 222 general support      extraordinary circumstances and
       technology (IT)         includes conducting a security       system changes that were        there was not time to establish a
       systems in support      test and evaluation (ST&E),          implemented between             new data center and perform a full
       of the                  updating the risk assessment with    October 1, 2005, and March      C&A within the timeframes under
       organization’s          findings from the ST&E,              4, 2006, and reviewed           which they were required to
       mission;                updating the system security         associated documentation        migrate off of the equipment at
                               plan, documenting certification      provided by OCFO/NFC to         the recovery operations center
    c. verifying that          findings; and forwarding the         determine if potential          after Hurricane Katrina.
       security controls       certification findings to the        security impacts had been       According to OCFO/NFC
       and features are        designated accrediting authority     adequately assessed.            management, the certification and
       examined both           for an accreditation decision.                                       accreditation process was started
       periodically and on                                                                          as soon as normal business
       an event driven       • Phase 3, the post-accreditation                                      operations were resumed in
       basis according to      phase, consists of managing the                                      January 2006. On August 3,
       departmental            configuration of the system to                                       2006, OCFO/NFC provided us
       standards for           ensure that the that the security                                    with the updated risk assessments,
       certification and       posture of the system is not                                         system security plans, ST&E
       accreditation           threatened by hardware or                                            reports, and draft certification and
       (C&A) of IT             software changes, the system                                         accreditation letters that were
       systems and             security plan is kept current, and                                   submitted to U.S. Department of
       infrastructure; and     performing re-accreditation                                          Agriculture’s Office of the Chief
                               every three years or when the                                        Information Officer.
    d. authorizing the         system changes significantly.
       operation of
       organizational
       information
       systems and any
       associated
       information system
       connections.




USDA/OIG-A/11401-24-FM                                                                                                      Page 19
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                                 Exhibit B – Page 3 of 16
      CONTROL                              CONTROL
      OBJECTIVE                           ACTIVITIES                      TESTS PERFORMED                         CONCLUSION
2.    OCFO/NFC ensures          The OCFO/NFC information                 We interviewed OCFO/NFC          OCFO/NFC controls were
      its entity-wide           security program requires division       personnel and reviewed the       suitably designed and operating
      security program          directors and staff chiefs to perform    latest OCFO/NFC control          effectively to achieve the control
      planning and              periodic testing and evaluation of       self assessments for its major   objectives.
      management control        the effectiveness of information         applications and general
      objectives are met by     security policies, procedures, and       support systems.
      conducting periodic       practices on at least an annual basis.
      reviews and               In addition, the Cyber Security Staff
      assessments of            is responsible for ensuring that
      implemented security      plans, procedures, and security
      controls to ensure that   controls are tested.
      the controls remain
      necessary and
      effective.
3.   OCFO/NFC ensures           The OCFO/NFC information                 We interviewed OCFO/NFC          OCFO/NFC controls were
     its entity-wide            security program requires division       personnel and reviewed the       suitably designed and operating
     security program           directors and staff chiefs to prepare    OCFO/NFC plan of action          effectively to achieve the control
     planning and               plans of action and milestones to        and milestones. OCFO/NFC         objectives.
     management control         remediate deficiencies and the           also provided the March
     objectives are met by      Cyber Security Staff to ensure that      2006 monthly update that
     developing and             remedial action plans for security       was sent to the Associate
     implementing plans of      deficiencies are implemented.            Chief Information Officer
     action to correct any                                               for Cyber Security.
     known or identified
     deficiencies and
     reduce or eliminate
     vulnerabilities in its
     information systems.




USDA/OIG-A/11401-24-FM                                                                                                            Page 20
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                            Exhibit B – Page 4 of 16
      CONTROL                            CONTROL
      OBJECTIVE                         ACTIVITIES                     TESTS PERFORMED                      CONCLUSION
4.   OCFO/NFC ensures         OCFO/NFC had issued a                   We selected 10 OCFO/NFC       OCFO/NFC controls, as updated,
     its entity-wide          management directive to define          employees hired into IT       were suitably designed to achieve
     security program         policy, responsibilities, and           positions since May 2003 to   the control objectives. However
     planning and             procedures for assigning risk levels,   review the process for        controls had not operated
     management control       designating position sensitivity, and   assigning risk codes. We      effectively to ensure that risk
     objectives are met by    obtaining required background           also judgmentally selected    levels were accurate and
     implementing             investigations for OCFO/NFC and         36 IT employees in a manner   appropriate background
     personnel security       contractor personnel. In May 2006,      that ensured that different   investigations, or reinvestigations,
     controls, specifically   OCFO/NFC updated this directive to      OCFO/NFC organizations        had been performed for
     background               clearly require all employees to be     were represented to           OCFO/NFC employees. For
     investigations and       assigned a position sensitivity         determine if assigned risk    example:
     clearances, and          designation, or risk level, and         levels were appropriate.
     ensuring adequate        undergo the appropriate type of                                       • Thirteen of the 36 employees
     assignment of            investigation. The updated directive    We reviewed documentation       reviewed did not have risk
     responsibilities.        also establishes requirements for re-   to determine if employees       levels that reflected current
                              evaluating risk levels when job         assigned the high and           duties;
                              responsibilities change or every two    moderate risk levels for
                              years.                                  computer/ information         • 46 of 180 employees assigned
                                                                      system positions had            a high risk level for
                                                                      completed required              computer/information system
                                                                      background investigations       positions did not show initial
                                                                      and periodic                    background investigations; an
                                                                      reinvestigations.               additional 10 did not have
                                                                                                      evidence of reinvestigations;
                                                                      We reviewed background          and 39 only had limited or
                                                                      investigation documentation     minimum background
                                                                      for 10 contractors.             investigations even through a
                                                                                                      full background investigation
                                                                                                      was required; and

                                                                                                    • 47 of the 83 employees with a
                                                                                                      moderate risk for
                                                                                                      computer/information system
                                                                                                      positions did not show an
                                                                                                      initial background
                                                                                                      investigation.

                                                                                                    During our review, OCFO/NFC
                                                                                                    evaluated employee risk levels to
                                                                                                    ensure that proper background
                                                                                                    checks were initiated and updated
                                                                                                    its management directives to
                                                                                                    clarify personnel security
                                                                                                    responsibilities and specify risk
                                                                                                    level review requirements.




USDA/OIG-A/11401-24-FM                                                                                                      Page 21
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                             Exhibit B – Page 5 of 16
      CONTROL                           CONTROL
      OBJECTIVE                        ACTIVITIES                     TESTS PERFORMED                        CONCLUSION
5.   OCFO/NFC ensures        The OCFO/NFC information                We interviewed OCFO/NFC          OCFO/NFC controls were
     its entity-wide         security program includes security      personnel, reviewed the New      suitably designed to achieve the
     security program        awareness training to inform            Employee Security Briefing,      control objectives if customer
     planning and            personnel, including contractors and    and analyzed the security        agencies applied the controls
     management control      other users of information systems      awareness tracking report as     specified in exhibit A.
     objectives are met by   that support the operations and         of April 26, 2006.               OCFO/NFC controls were also
     conducting security     assets of the agency, of the                                             operating effectively to ensure
     awareness and           information security risks associated   We judgmentally selected a       that OCFO/NFC users were made
     technical training to   with their activities; and their        sample of 25 Government          aware of basic information system
     ensure that end users   responsibilities in complying with      Employee Services Division       security concepts, but not
     and system users are    agency policies and procedures          and 25 Information               OCFO/NFC-specific security
     aware of the rules of   designed to reduce these risks.         Resources Management             responsibilities. While
     behavior and their                                              Division employees from          OCFO/NFC had planned for
     responsibilities in     The OCFO/NFC management                 organizational listings as of    quarterly security awareness
     protecting the          directive for security awareness        March 22, 2006, in a manner      briefings addressing OCFO/NFC
     organization’s          training requires new OCFO/NFC          that ensured that staff          security-related directives, these
     mission.                employees and contractor personnel      members assigned to              briefings were not provided as
                             to attend the OCFO/NFC New              different organizational units   planned because Hurricane
                             Employee Security Briefing before       would be selected. We            Katrina disrupted the process.
                             being given access to OCFO/NFC          reviewed the security            OCFO/NFC had plans to continue
                             computer systems. For customer          awareness training status        the quarterly security briefings.
                             agency employees, the customer          report as of April 30, 2006,
                             agency is responsible for ensuring      and additional
                             users sign an agreement to abide by     documentation to verify that
                             rules of behavior for accessing         they had completed the
                             OCFO/NFC systems prior to               training.
                             requesting their access.

                             The OCFO/NFC management
                             directive for security awareness
                             training also requires employees to
                             complete annual security awareness
                             training to renew their awareness of
                             security responsibilities. This
                             directive tasks the Cyber Security
                             Staff with maintaining a security
                             awareness program and division
                             directors and staff chiefs with
                             ensuring attendance.

                             In addition, the OCFO/NFC
                             management directive for individual
                             development plans specifies a
                             process for ensuring that employees
                             receive training required to perform
                             their job functions.




USDA/OIG-A/11401-24-FM                                                                                                       Page 22
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                               Exhibit B – Page 6 of 16
     CONTROL                             CONTROL
     OBJECTIVE                          ACTIVITIES                       TESTS PERFORMED                        CONCLUSION
6.   OCFO/NFC               For OCFO/NFC employees, the                 We interviewed Information      OCFO/NFC controls, as updated,
     ensures its entity-    OCFO/NFC data security access policy        Systems Security Office         were suitably designed to achieve
     wide security          directive states that access will be        (ISSO) personnel regarding      the control objectives if customer
     program planning       limited based on the minimum number         the processes used to manage    agencies applied the controls
     and management         of employees needed to effectively          information system accounts     specified in exhibit A. In
     control objectives     perform job functions, as determined        and observed the process for    addition, physical access controls
     are met by             by resource owners. This directive          creating mainframe user         were operating effectively to
     enforcing physical     also establishes a standard process for     identifications (ID) and        achieve the control objectives.
     and logical security   requesting access to resources based on     passwords.                      However, logical access controls
     measures to prevent    a standard form that documents the                                          had not operated effectively to
     errors and             specific resources and access level         For OCFO/NFC users, we          ensure that access to sensitive
     irregularities and     required, the reason the access is          reviewed listings that          resources was appropriately
     the possibility of     needed, and both management and             identified access permissions   limited.
     loss of data or        resource owner approvals. In June           for sensitive
     processing by          2006, OCFO/NFC published a role-            payroll/personnel               While OCFO/NFC had made
     limiting access to     based security access policy and            applications, production        substantial progress in
     authorized users       procedures for creating access roles,       libraries related to            implementing role-based access
     and restricting the    adding and removing staff members           mainframe application           profiles, unnecessary access to
     types of               from existing roles, and modifying          configuration management,       payroll/personnel applications,
     transactions and       access authorities included in existing     and system resources. We        application configuration
     functions that         roles.                                      also evaluated access           management libraries, and
     authorized users are                                               permissions for 4               sensitive system resources
     permitted to           In addition, the OCFO/NFC                   OCFO/NFC employees that         continued to exist. For example,
     exercise.              management directive for establishing       transferred as of October 28,   67 OCFO/NFC staff members
                            internal controls over access requires      2005, and 10 employees that     were granted access to certain
                            separation of functions to guard            separated after October 1,      payroll and/or personnel
                            against personnel having the                2005.                           applications even though it was
                            opportunity to commit and/or conceal                                        not required to perform job
                            intentional or unintentional alteration,    For customer agency             functions. This included 16 staff
                            destroy data or software. If the            employees, we reviewed          members assigned to application
                            separation of incompatible functions is     access permissions for 14       development organizations that
                            not possible, branch chiefs are required    judgmentally selected           were granted access to process
                            to implement compensating controls.         customer agency users           transactions through certain
                            This directive also establishes             whose accounts were created     payroll and/or personnel
                            procedures for ensuring that access         between October 1, 2005,        applications, which violates
                            remains appropriate over time.              and March 21, 2006. We          segregation of duties principles.
                            Division/staff office security              also followed up on 13          OCFO/NFC removed this
                            coordinators are responsible for            employees that were either      unnecessary access when role-
                            reviewing reports of personnel actions      listed on a customer agency     based access profiles were
                            and branch chiefs are responsible for       security officer listing or     assigned to the staff members
                            periodically reviewing their                were assigned administrative    with unnecessary access.
                            employee’s access authorities to            access authorities consistent
                            determine if access needs to be             with customer agency            We also found that unnecessary
                            changed or removed.                         security officer functions to   access to sensitive system
                                                                        determine if OCFO/NFC           resources identified in our fiscal
                            Furthermore, the OCFO/NFC                   was accurately maintaining      year 2005 review continued to
                            management directive for completing         customer agency security        exist. This included unnecessary
                            its separation form (NFC 1267)              officers.                       access to 6 of 17 sensitive
                            requires the employee or their first line                                   operating system libraries
                            supervisor to hand carry the form to        For inactive user IDs, we       reviewed, 42 of 72 authorized
                            different organizations, including          reviewed a listing provided     program facility libraries
                            ISSO, on the employee’s last working        by ISSO in March 2003 to        reviewed, and a database utility
                            day. An ISSO representative signs the       identify and follow up on       that could be used to bypass
                            form to certify that mainframe access       accounts that had not been      normal controls.
                            has been removed.                           used in 180 days, but were
                                                                        still active.




USDA/OIG-A/11401-24-FM                                                                                                         Page 23
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                  Exhibit B – Page 7 of 16
     CONTROL                    CONTROL
     OBJECTIVE                 ACTIVITIES                      TESTS PERFORMED                     CONCLUSION
6.   (continued)   For customer agency employees, the          For physical access         It appeared that the request to
                   customer agency is responsible for          controls, we judgmentally   remove this access was not
                   designating personnel who are               selected 10 of the 36       processed in the confusion after
                   authorized to request user additions,       employees with access to    Hurricane Katrina. OCFO/NFC
                   deletions, and security level changes.      the interim computer        officials told us that the request
                   These customer agency security              facility for review.        had been resubmitted. In
                   officers are also responsible for                                       addition, 13 OCFO/NFC staff
                   ensuring the level of access assigned to                                members were allowed to update
                   a user remains appropriate over time.                                   certain production application
                   OCFO/NFC then grants authority to                                       configuration management
                   use (access) its facilities to individual                               libraries even though this access
                   users at the request of customer agency                                 was not required to perform job
                   security officer.                                                       functions. OCFO/NFC officials
                                                                                           told us that this access would be
                   An additional management directive                                      removed. In April 2006,
                   addresses the suspension/deletion of                                    OCFO/NFC established
                   unused accounts and states that                                         procedures that require annual
                   OCFO/NFC will use an automated                                          reviews of all users and
                   process to delete user identifications                                  resources assigned to role-based
                   after 150 days without use.                                             access profiles.

                   The OCFO/NFC network security                                           In addition, we identified 10
                   policy requires physical access to                                      OCFO/NFC employees that
                   servers and related components to be                                    required access permissions that
                   limited to authorized personnel. The                                    violated segregation of duties
                   policy also requires servers, backup                                    principles to perform their job
                   facilities, uninterrupted power supply,                                 functions. These access
                   network switches, etc., to be installed                                 permissions provided the ability
                   in physically secured areas whenever                                    to create a fictitious employee
                   possible.                                                               position, enter payroll and
                                                                                           personnel actions for the
                                                                                           fictitious employee, and process
                                                                                           payments for the fictitious
                                                                                           employee for both USDA and
                                                                                           other customer agencies. While
                                                                                           OCFO/NFC had established
                                                                                           controls to review manual
                                                                                           payments for OCFO/NFC
                                                                                           employees, it was not reviewing
                                                                                           payments initiated by
                                                                                           OCFO/NFC employees for
                                                                                           customer organization
                                                                                           employees. In addition,
                                                                                           OCFO/NFC had not
                                                                                           implemented controls to review
                                                                                           other payroll and personnel
                                                                                           actions entered by its employees.




USDA/OIG-A/11401-24-FM                                                                                             Page 24
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                  Exhibit B – Page 8 of 16
     CONTROL              CONTROL
     OBJECTIVE           ACTIVITIES      TESTS PERFORMED           CONCLUSION
6.   (continued)                                           For transferred employees,
                                                           OCFO/NFC had not appropriately
                                                           adjusted access for 2 of the 4
                                                           users we reviewed that had
                                                           transferred organizations. This
                                                           occurred because requests to
                                                           cancel access authority were not
                                                           submitted when the employee
                                                           transferred and OCFO/NFC was
                                                           not producing a report of
                                                           personnel actions that was
                                                           intended to allow division office
                                                           security coordinators to determine
                                                           if access had been appropriately
                                                           adjusted. During our review,
                                                           OCFO/NFC established new
                                                           procedures to ensure appropriate
                                                           clearance of systems access,
                                                           property, and other accountable
                                                           items when employees transfer.
                                                           These procedures include a
                                                           control report that will be used to
                                                           ensure that all transferred
                                                           personnel have a completed
                                                           transfer form.

                                                           For separated employees, 8 of the
                                                           10 employees that we reviewed
                                                           continued to have access to
                                                           OCFO/NFC systems after their
                                                           separation date. This occurred
                                                           mainly because the separation
                                                           form that triggers access removal
                                                           was not consistently processed
                                                           during the period when
                                                           OCFO/NFC staff members were
                                                           deployed in different locations
                                                           after Hurricane Katrina. In
                                                           addition, OCFO/NFC had not
                                                           always removed access before
                                                           signing the separation form.
                                                           During our review, OCFO/NFC
                                                           created desk procedures to ensure
                                                           that access was appropriately
                                                           removed.




USDA/OIG-A/11401-24-FM                                                            Page 25
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                   Exhibit B – Page 9 of 16
    CONTROL               CONTROL
    OBJECTIVE            ACTIVITIES      TESTS PERFORMED           CONCLUSION
6. (continued)                                             During our review, OCFO/NFC
                                                           expanded its existing procedures
                                                           for reviewing manual payments
                                                           to include transactions initiated
                                                           by OCFO/NFC employees for
                                                           customer agencies and created
                                                           new reports to identify payroll
                                                           and personnel actions initiated
                                                           by its employees for review.

                                                           For customer agency employees,
                                                           OCFO/NFC officials could not
                                                           locate the access requests for 4
                                                           of the 14 customer agency
                                                           employees we reviewed. These
                                                           accounts were created during
                                                           October 2005 while OCFO/NFC
                                                           was operating in disaster
                                                           recovery mode after Hurricane
                                                           Katrina. For 3 of the remaining
                                                           10, OCFO/NFC granted access
                                                           based on requests from
                                                           personnel that were not in the
                                                           customer agency security officer
                                                           listing. We also identified 2
                                                           instances where OCFO/NFC
                                                           granted more access than was
                                                           specified in the original request.
                                                           During our review, OCFO/NFC
                                                           created desk procedures for
                                                           processing requests from
                                                           customer agency security
                                                           officers to ensure that the
                                                           requestor is an authorized
                                                           security officer and that access is
                                                           appropriately granted based on
                                                           the request.




USDA/OIG-A/11401-24-FM                                                             Page 26
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                 Exhibit B – Page 10 of 16
    CONTROL               CONTROL
    OBJECTIVE            ACTIVITIES      TESTS PERFORMED           CONCLUSION
6. (continued)                                             We also found that OCFO/NFC
                                                           had not maintained an accurate
                                                           record of customer agency
                                                           security officers. OCFO/NFC
                                                           officials told us they were
                                                           verifying current customer
                                                           agency security officers. Also,
                                                           OCFO/NFC updated its internal
                                                           procedures and the procedures
                                                           provided to customer agency
                                                           security officers to ensure that
                                                           customer agency security
                                                           officers are accurately identified.

                                                           For inactive user IDs, we
                                                           determined that OCFO/NFC had
                                                           implemented an automated
                                                           process to delete mainframe user
                                                           IDs after 150 days without use,
                                                           but OCFO/NFC security officers
                                                           and a certain type of customer
                                                           agency security officer were not
                                                           included in this process.
                                                           OCFO/NFC updated its
                                                           automated process to include
                                                           these security officers in July
                                                           2006.




USDA/OIG-A/11401-24-FM                                                             Page 27
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                        Exhibit B – Page 11 of 16
    CONTROL                            CONTROL
    OBJECTIVE                         ACTIVITIES                      TESTS PERFORMED                     CONCLUSION
7. OCFO/NFC ensures        The OCFO/NFC network security             We reviewed a list of        OCFO/NFC controls were
   its access control      policy requires both user IDs and         mainframe user IDs and       suitably designed and operating
   objectives are met      processes to be identified with an        followed up on 42 user IDs   effectively to achieve the control
   by enforcing            individual and to not be shared. This     that appeared generic. We    objectives.
   controls to uniquely    policy also requires each user account    also observed the process
   identify users,         to have a password to ensure that         for creating user IDs and
   processes, and          users can be identified and               passwords and connected to
   information             authenticated.                            servers to ensure that
   resources and                                                     authentication was
   verifying the                                                     required.
   identity of a subject
   to ensure that it is
   valid.
8. OCFO/NFC ensures        The OCFO/NFC network security             We interviewed               OCFO/NFC controls were
   its access control      policy states that the following events   OCFO/NFC personnel. We       suitably designed, but not
   objectives are met      will be logged: logons and log offs;      also reviewed system         operating effectively to ensure
   by enforcing            failed logons; lockouts and unlocks;      configuration information    that unusual or suspicious activity
   controls to monitor,    server-based administrator activities;    and monitoring reports.      to certain sensitive mainframe
   analyze, investigate,   unsuccessful attempts to access                                        resources was identified and
   and report on IT        information resources; and                                             investigated. OCFO/NFC’s
   activity.               modifications to highly sensitive data                                 intrusion detection system was
                           and resources.                                                         operating as intended and
                                                                                                  mainframe security events were
                           The policy also requires the                                           being logged. However, some of
                           Information Systems Policy and                                         the mainframe monitoring reports
                           Control Staff (ISPCS) to monitor logs                                  had not been consistently
                           for unusual security events, including                                 reviewed during fiscal year 2006.
                           unsuccessful access attempts to gain                                   While it appeared that the security
                           entry to systems or access sensitive                                   reporting processes were not
                           information; deviations from access                                    interrupted after Hurricane
                           trends; unsuccessful attempts to                                       Katrina, changes occurred in the
                           access highly sensitive data and                                       way some reports were distributed
                           resources; highly sensitive/privileged                                 and responsible parties were not
                           access outside of normal operations;                                   always aware that the monitoring
                           and access modifications made by                                       reports were being produced.
                           non-security personnel. If further                                     OCFO/NFC performed a review
                           investigation is required, ISPCS                                       of its mainframe monitoring
                           documents the findings and if the                                      reports that included documenting
                           event is found to be, or has the                                       the current method of delivery,
                           potential to be, a computer security                                   which should help ensure that
                           incident, directs it to Cyber Security                                 reports are received by the
                           Staff.                                                                 appropriate staff member.

                           The policy also requires OCFO/NFC
                           to develop and administer an
                           intrusion detection program to reduce
                           the risk of unauthorized access or
                           hostile activity.




USDA/OIG-A/11401-24-FM                                                                                                    Page 28
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                       Exhibit B – Page 12 of 16
    CONTROL                           CONTROL
    OBJECTIVE                        ACTIVITIES                     TESTS PERFORMED                      CONCLUSION
9. OCFO/NFC ensures       The OCFO/NFC firewall policy             We interviewed                OCFO/NFC controls were
   its access control     requires all direct connections to the   OCFO/NFC staff. We also       suitably designed and operating
   objectives are met     Internet or other networks to occur      obtained OCFO/NFC             effectively to achieve the control
   by:                    through an OCFO/NFC managed              firewall rules and reviewed   objectives.
                          firewall that denies all inbound and     the system test and
   a. Enforcing           outbound protocols unless                evaluation report for the
      controls to         specifically permitted and identifies    mainframe general support
      monitor and         the source and destination for each      system and other system
      control             protocol.                                documentation for the
      communications      The firewall policy also establishes a   interim computing facility.
      at the external     requirement for a demilitarized zone
      boundary of the     between the Internet and                 We reviewed the results of
      information         OCFO/NFC’s internal network to           OCFO/NFC phone scans
      system and at       support applications that require        performed in March 2006.
      key internal        publicly accessible network servers.     We tested the modems
      boundaries with     The demilitarized zone is protected      identified by the
      the system;         by firewalls on both sides that permit   OCFO/NFC phone scans
                          http and https services and only allow   and 16 modem lines at the
   b. preventing          administrative protocols through the     interim computing facility
      public access       internal network.                        to ensure that they were
      into the internal                                            adequately secured. We
      networks;           The OCFO/NFC network security            also reviewed
                          policy requires all modems connected     documentation associated
   c. only permitting     to the OCFO/NFC network be               with connecting devices to
      connections to      documented and approved. The             the OCFO/NFC network.
      the Internet        OCFO/NFC management directive
      through             for modem phone lines establishes
      controlled          procedures for requesting, approving,
      interfaces; and     and performing an annual validation
                          of authorized modem lines. In
   d. allocating          addition, OCFO/NFC runs a quarterly
      publicly            phone scan to identify unauthorized
      accessible          modems.
      information
      system              OCFO/NFC procedures also prohibit
      components to       employees from connecting devices
      separate sub-       to the network. Employees must
      networks with       submit Form NFC-1155. If
      separate,           approved, OCFO/NFC ensures that
      physical            the device is appropriately protected
      network             before connecting it to the network.
      interfaces.




USDA/OIG-A/11401-24-FM                                                                                                   Page 29
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                             Exhibit B – Page 13 of 16
    CONTROL                             CONTROL
    OBJECTIVE                          ACTIVITIES                       TESTS PERFORMED                        CONCLUSION
10. OCFO/NFC ensures       The OCFO/NFC network security               We interviewed OCFO/NFC         OCFO/NFC controls, as updated,
    its access control     policy states that physical access to the   officials, reviewed             were suitably designed and
    objectives are met     network server and related components       documentation describing        operating effectively to achieve
    by protecting the      is limited to authorized personnel. The     how physical access points      the control objective.
    physical facility to   policy also requires servers, backup        are controlled, and observed
    prevent                facilities, uninterrupted power supply,     physical security access
    unauthorized access    network switches, etc., to be installed     points and processes at the
    to the computers,      in physically secured areas whenever        interim computing facility.
    printers, terminals,   possible. OCFO/NFC implemented
    telecommunications     security procedures for gaining access      We judgmentally selected 10
    equipment, and         to the interim computing facility in        of the 36 employees with
    storage media.         January 2006. In July 2006,                 access to the interim
                           OCFO/NFC updated these procedures           computing facility as of
                           to include periodically reviewing the       April 24, 2006, for review to
                           access control listing to ensure that       determine if their access was
                           access was still appropriate and            appropriately authorized.
                           analyzing physical access logs to
                           identify unusual or suspicious attempts     We reviewed access logs that
                           to access OCFO/NFC controlled areas         documented denied attempts
                           at the interim computing facility.          to access OCFO/NFC
                                                                       controlled areas at the
                                                                       interim computing facility
                                                                       from January 2006 through
                                                                       April 2006.

                                                                       We observed OCFO/NFC
                                                                       procedures for escorting and
                                                                       monitoring visitor activity
                                                                       and reviewed associated
                                                                       visitor access logs.
11. OCFO/NFC ensures       The OCFO/NFC network security               We interviewed personnel,       OCFO/NFC controls were
    its environmental      policy requires critical application        observed both OCFO/NFC          suitably designed and operating
    protection control     network components have air                 and the interim computing       effectively to achieve the control
    objectives are met     conditioning and humidity control           facility, and reviewed          objectives.
    by maintaining a       systems to maintain temperatures            associated documentation.
    secure, conditioned    within manufacturer specifications.
    space with             In addition, the policy states that the
    redundant              network and its components should
    uninterruptible        be protected from the effects of static
    power source,          electricity, power surges, dust,
    physical event         smoke, water, and other particulate
    monitoring, and        matter. In this regard, critical
    available onsite       applications are required to reside on
    assistance in order    systems with a backup power supply
    to minimize            that includes both power surge
    potential damage to    protection and line
    or interruption of     conditioning/filtering capabilities. In
    information            addition, OCFO/NFC operates,
    systems.               maintains, and tests emergency power
                           generators for use during commercial
                           power outages.




USDA/OIG-A/11401-24-FM                                                                                                         Page 30
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                              Exhibit B – Page 14 of 16
    CONTROL                             CONTROL
    OBJECTIVE                          ACTIVITIES                       TESTS PERFORMED                       CONCLUSION
12. OCFO/NFC ensures       The OCFO/NFC management                     We interviewed OCFO/NFC       OCFO/NFC controls were suitably
    that change control    directive for scheduled software            officials and reviewed        designed and operating effectively
    objectives for         maintenance defines policy,                 system documentation.         for emergency changes, but not for
    production             responsibilities, and procedures for                                      non-emergency changes.
    application systems    controlling application software            We randomly selected 15
    are met by:            changes. This directive requires all        of the 177 non-emergency      OCFO/NFC had adequately
                           changes to be documented on a               projects and 5 of the 24      documented and approved the 14
  a. Planning,             program change request form, tested         emergency projects            non-emergency projects we
     developing,           according to development organization       associated with application   reviewed. However, OCFO/NFC did
     implementing, and     guidelines, and approved prior to           changes that were             not provide complete requirements
     directing a           implementation. Also, it includes a         implemented between           and/or unit test documentation for 5
     software quality      step for updating associated procedure      October 1, 2005 and March     of the 14 projects. Three of these
     assurance program     documentation.                              15, 2006, and reviewed        projects occurred while OCFO/NFC
     that includes                                                     associated documentation      was deployed after Hurricane
     configuration         Supplemental guidance for completing        provided by OCFO/NFC.         Katrina. The two additional projects
     management and        program change request forms states         We eliminated one of the      with incomplete documentation
     user acceptance       that the form serves as a cover sheet       non-emergency projects        appear to have been caused by
     testing;              for requirements documentation and          selected because it was an    human error rather than a control
                           should be prepared and approved.            emergency project that was    deficiency. In addition, OCFO/NFC
  b. providing             Also, there is agreement on software        miscoded.                     had not performed user acceptance
     configuration         requirements as documented by                                             testing during fiscal year 2006 due to
     management by         requirements analysts or the customer                                     staffing deficiencies and large
     identifying and       agency.                                                                   backlogs caused by Hurricane
     defining the                                                                                    Katrina. However, user acceptance
     configuration items   Supplemental guidance for application                                     testing had been reinstated in August
     in a system,          software testing requires both                                            2006.
     controlling the       emergency and non-emergency
     release and change    program changes to undergo unit
     of these items        testing and additional testing for non-
     through the system    emergency changes, which are
     life cycle, and       classified as either mandated or
     recording             routine. Mandated changes undergo
     completeness and      user acceptance testing in a simulated
     correctness of        production environment, unless
     configuration         specifically waived by the operations
     items;                manager or the user requesting the
                           change; while routine changes undergo
  c. maintaining           more formal quality assurance
     baseline              acceptance testing unless specifically
     configurations and    waived by the development
     inventories of        organization, users, and other technical
     organizational        personnel. Test plans that include test
     information           cases and expected results; test results;
     systems; and          and the associated approvals are
                           required to be documented and
  d. utilizing state-of-   maintained.
     the-art change
     control tools for
     migration of
     program changes
     from development
     environments to
     quality assurance
     and production
     environments.




USDA/OIG-A/11401-24-FM                                                                                                      Page 31
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                           Exhibit B – Page 15 of 16
    CONTROL                             CONTROL
    OBJECTIVE                          ACTIVITIES                     TESTS PERFORMED                       CONCLUSION
13. OCFO/NFC ensures       OCFO/NFC C&A procedures                   We interviewed                  OCFO/NFC controls were
    its systems software   recognize the importance security-        OCFO/NFC officials and          suitably designed to achieve the
    are updated and        related documentation, including a        reviewed system                 control objectives. In addition,
    protected from         trusted facility manual that explains     configuration                   OCFO/NFC controls were
    malicious code by:     how to operate the system in the most     documentation.                  operating effectively to ensure
                           secure manner. These procedures                                           that system software change
    a. Giving particular   also state that standard operating        We judgmentally selected        requests were appropriately
       attention to the    procedures may be included in this        10 of the 222 non-              documented, tested and
       process utilized    manual or maintained separately.          emergency and 5 of the 41       approved. However,
       to build, change,                                             emergency general support       OCFO/NFC controls had not
       or implement the    The OCFO/NFC management                   system changes that were        consistently ensured that
       system and          directive for IT infrastructure changes   implemented between             identified vulnerabilities were
                           specifies responsibilities and            October 1, 2005, and            resolved in a timely manner.
    b. maintaining a       procedures for changes to hardware        March 4, 2006, and
       flaw remediation    and operating system software. This       reviewed OCFO/NFC               We identified 84 easily
       process with        directive requires the requestor to       documentation associated        exploitable vulnerabilities that
       patch               submit a change request; test the         with the changes.               were identified in March 2006,
       management,         change in a test environment and                                          but remained open in June 2006.
       malicious code      document the results or the reason the    We reviewed vulnerability       As of July 8, 2006, 15 of these
       screening, and      change was not tested; and provide a      scan reports from March         had been declared as either false
       checks, along       method of validation to ensure that       through June 2006 and           positives or acceptable risks, 68
       with personnel      the change operates as intended in the    documentation identifying       were included in action plans,
       supervision,        production environment. Branch            vulnerabilities classified as   and 1 remained open. The 15
       procedural          chiefs verify that testing was            false positives or acceptable   declarations for false positives
       reviews.            performed, review the method of           risks.                          or acceptable risk occurred, on
                           validation, and approve the request.                                      average, more than 85 days after
                                                                                                     their identification. We also
                           OCFO/NFC management directives                                            identified 68 additional easily
                           and other guidance also establish                                         exploitable vulnerabilities that
                           policies and procedures for                                               were identified in January 2006
                           preventing information system                                             but not resolved until April
                           vulnerabilities by requiring anti-virus                                   2006. OCFO/NFC officials told
                           software, prohibiting users from                                          us that the delay in executing
                           installing unauthorized software, and                                     declarations and addressing
                           implementing network system                                               vulnerabilities was due, in part,
                           security patches.                                                         to the limited number of staff
                                                                                                     available after Hurricane Katrina
                           In addition, the OCFO/NFC                                                 and the increased downtime
                           management directive for network                                          associated with traveling to and
                           vulnerability self assessments                                            from the interim computing
                           requires vulnerability scans to be                                        facility. OCFO/NFC began
                           performed at least quarterly. While                                       rerunning scans on a weekly
                           the directive does not specify a                                          basis in May 2006. In addition,
                           timeframe for resolution, it requires                                     the monthly plan of actions and
                           action plans to be documented and                                         milestones reporting process
                           approved for vulnerabilities that are                                     began tracking the resolution of
                           not resolved within 45 days of                                            items noted.
                           identification.




USDA/OIG-A/11401-24-FM                                                                                                      Page 32
Exhibit B – Office of Inspector General - Review of Selected Controls
                                                                                                          Exhibit B – Page 16 of 16
     CONTROL                             CONTROL
     OBJECTIVE                          ACTIVITIES                      TESTS PERFORMED                    CONCLUSION
14. OCFO/NFC ensures         The OCFO/NFC Information                  We interviewed               OCFO/NFC controls were
    its service continuity   Security Program includes plans and       OCFO/NFC personnel, and      suitably designed to achieve the
    control objectives are   procedures to ensure continuity of        reviewed the OCFO/NFC        control objectives. We also
    met by:                  operations for information systems        Continuity of Operations     concluded that OCFO/NFC
                             that support the operations and assets    Plan. We also reviewed the   controls were operating
     a. Providing            of the agency. Division directors and     OCFO/NFC Computer            effectively except to ensure
        continuity of        branch chiefs are responsible for         Incident Handling Guide      continuity of operations during
        support and          providing plans and procedures in         and ST&E for the             emergencies or disasters.
        developing,          coordination with OCFO/NFC central        mainframe general support
        testing, and         recovery plan and developing,             system.                      While OCFO/NFC had updated
        maintaining the      testing, and maintaining continuity of                                 its Continuity of Operations Plan
        continuity of        operations plans for their business                                    to reflect their current operating
        operations plan      units. In this regard, the OCFO/NFC                                    environment, it had not yet
        to provide for       Continuity of Operations Plan states                                   completed updates of the
        business             that OCFO/NFC conducts semi-                                           associated procedures for
        resumption and       annual tests at the recovery                                           recovering computer operations to
        to ensure            operations center and alternate work                                   ensure that architectural changes
        continuity of        sites. In addition, OCFO/NFC                                           that occurred with the move to the
        operations           management directives also define                                      interim computing facility or
        during               standards, procedures, and                                             tested recovery of operations at
        emergencies or       responsibilities for preparation,                                      the new recovery operations
        disasters. This      implementation, and maintenance of                                     center. OCFO/NFC officials
        control also         disaster recovery backup and restore                                   estimated that they would
        includes the         jobs for the mainframe environment                                     complete the disaster recovery
        backup               that require daily backups and storage                                 procedure update by September
        capability           at an offsite location.                                                30, 2006, after performing a
        available for                                                                               limited test to validate the new
        system recovery;     The OCFO/NFC Information                                               recovery site set up and
                             Security Program also includes                                         equipment. OCFO/NFC officials
     b. establishing an      procedures for detecting, reporting,                                   also told us they had scheduled
        incident             and responding to security incidents.                                  another test for May 2007.
        response             In this regard, the OCFO/NFC
        capability to        computer incident handling guide
        prepare for,         establishes policy, responsibilities,
        recognize,           and procedures for addressing
        report, and          computer security incidents.
        respond to the
        incident and         In addition, the OCFO/NFC
        return the IT        management directive for sanitizing
        system to            storage media containing sensitive
        operational          data requires either degaussing or
        status; and          shredding data storage media that will
                             not be used again and either
     c. controlling          degaussing or overwriting for data
        access to and        storage media that will be transferred,
        disposal of data     donated, stored, or reused.
        media.




USDA/OIG-A/11401-24-FM                                                                                                     Page 33
